<html>
<title> - FEDERAL, STATE, AND LOCAL AGREEMENTS AND ASSOCIATED BENEFITS FOR SPENT NUCLEAR FUEL DISPOSAL</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


FEDERAL, STATE, AND LOCAL AGREEMENTS AND ASSOCIATED BENEFITS FOR SPENT 
                         NUCLEAR FUEL DISPOSAL

=======================================================================

                                 HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 7, 2016

                               __________

                           Serial No. 114-157
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                            ____________
                               
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE
21-623                    WASHINGTON : 2017                   
_________________________________________________________________________________________                    
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="88eff8e7c8ebfdfbfce0ede4f8a6ebe7e5a6">[email&#160;protected]</a>  
                    
                    
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
GREGG HARPER, Vice Chairman          PAUL TONKO, New York
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               KURT SCHRADER, Oregon
JOSEPH R. PITTS, Pennsylvania        GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                LOIS CAPPS, California
DAVID B. McKINLEY, West Virginia     MICHAEL F. DOYLE, Pennsylvania
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
LARRY BUCSHON, Indiana               TONY CARDENAS, California
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
RICHARD HUDSON, North Carolina           officio)
KEVIN CRAMER, North Dakota
FRED UPTON, Michigan (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     4
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7

                               Witnesses

Dina Titus, A Representative in Congress from the State of Nevada     8
    Prepared statement...........................................    11
Mark E. Amodei, A Representative in Congress from the State of 
  Nevada.........................................................    14
    Prepared statement...........................................    17
Robert J. Dold, A Representative in Congress from the State of 
  Illinois.......................................................    20
    Prepared statement...........................................    22
Cresent Hardy, A Representative in Congress from the State of 
  Nevada.........................................................    26
    Prepared statement...........................................    28
Dan Schinhofen, County Commissioner, Nye County, Nevada..........    31
    Prepared statement...........................................    34
Joseph Hardy, State Senator, State of Nevada.....................    41
    Prepared statement...........................................    43
Gene Humphrey, President, International Test Solutions, Inc......    46
    Prepared statement...........................................    48

                           Submitted Material

Statement of Brian Sandoval, Governor of Nevada, submitted by Mr. 
  Shimkus........................................................    64
Statement of Adam Paul Laxalt, Attorney General of Nevada, 
  submitted by Mr. Shimkus.......................................    66
Statement of Al Hill, Mayor of Zion, Illinois, submitted by Mr. 
  Dold...........................................................    68
Statement of Zion-Benton Area Representatives & Business 
  Interests......................................................    70
Statement of Hon. Dean Heller, U.S. Senator from the State of 
  Nevada.........................................................    74

 
FEDERAL, STATE, AND LOCAL AGREEMENTS AND ASSOCIATED BENEFITS FOR SPENT 
                         NUCLEAR FUEL DISPOSAL

                              ----------                              


                         THURSDAY, JULY 7, 2016

                  House of Representatives,
       Subcommittee on Environment and the Economy,
                           Committee on Energy and Commerce
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2123 Rayburn House Office Building, Hon. John Shimkus 
(chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, Harper, Murphy, 
Latta, McKinley, Johnson, Bucshon, Flores, Hudson, Cramer, 
Tonko, Schrader, Green, McNerney, and Pallone (ex officio).
    Staff present: Mike Bloomquist, Deputy Staff Director; 
Rebecca Card, Assistant Press Secretary; Giulia Giannangeli, 
Legislative Clerk, Commerce, Manufacturing, and Trade, 
Environment and the Economy; A.T. Johnston, Senior Policy 
Advisor; David McCarthy, Chief Counsel, Environment and the 
Economy; Chris Santini, Policy Coordinator, Oversight and 
Investigations; Chris Sarley, Policy Coordinator, Environment 
and the Economy; Dan Schneider, Press Secretary; Peter Spencer, 
Professional Staff Member, Oversight; Dylan Vorbach, Deputy 
Press Secretary; Andy Zach, Counsel, Environment and the 
Economy; Jeff Carroll, Minority Staff Director; Jean Fruci, 
Minority Energy and Environment Policy Advisor; Tiffany 
Guarascio, Minority Deputy Staff Director and Chief Health 
Advisor; Rick Kessler, Minority Senior Advisor and Staff 
Director, Energy and Environment; Alexander Ratner, Minority 
Policy Analyst; Tuley Wright, Minority Energy and Environment 
Policy Advisor; and C.J. Young, Minority Press Secretary.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Doors closed. If members could have their 
seats. If the first panel will take their seats there. We've 
got all my colleagues and the leadership here so we can start 
promptly. I know a lot of people have other meetings.
    So I would like to call the hearing to order and recognize 
myself for 5 minutes for an opening statement.
    Good morning and welcome to our hearing to receive input 
from Nevada stakeholders about opportunities to move forward 
with the Yucca Mountain project.
    First, I would like to thank my colleagues who are here to 
testify on this important issue. The members of the Nevada 
delegation demonstrate a willingness to engage in this 
conversation of national importance and demonstrate leadership 
in the federal policymaking process.
    Congressman Cresent Hardy represents Nye County, the site 
of Yucca Mountain, and the immediate surrounding counties. I 
appreciate his dedication in representing his constituents in 
Congress and recognition of the need to be part of a 
constructive dialogue.
    He has stated that he will not tolerate the compromising of 
his constituents' safety nor the safety of any other Nevadan 
and I wholeheartedly agree.
    I welcome my colleague from Illinois, Congressman Bob Dold. 
His testimony and legislation highlights the implications on 
communities around the country associated with this 
administration's decision to walk away from Yucca Mountain.
    The legacy impact on cities like Zion, Illinois is often 
lost in the national conversations regarding the development of 
the Yucca Mountain repository to dispose of our nation's 
commercial spent nuclear fuel.
    While we will hear from many Nevada stakeholders this 
morning, we will not be hearing directly from the state of 
Nevada. Governor Sandoval declined the committee's invitation 
to participate and stated his opposition to the project based 
on scientific, technical and legal merit.
    I understand Governor Sandoval's position and look forward 
to seeing the scientific and technical issues resolved when the 
licensing process resumes.
    We are not here to prejudge the outcome of this process 
but, rather, discuss what Congress should consider when the 
license is issued.
    Governor Sandoval is rightly proud of Nevada's 
contributions to our nation as a host of key national security 
facilities and armed forces bases. He notes, ``Nevadans also 
believe our relationship with the federal government should be 
one where the state is seen as a valued partner, an ideal that 
is often not recognized.''
    I hope going forward we will have a meaningful conversation 
about how exactly that partnership can be constructed despite 
the state's formal objection in 2002, one Congress 
overwhelmingly rejected. I look forward to building this 
relationship and continuing dialogue with the governor.
    Our second panel of witnesses today consist of a wide range 
of Nevada stakeholders including state and local elected 
officials and private citizens.
    Those families who reside closest to the repository site 
should have their voices heard so that Congress can understand 
their priorities including how the federal government can 
provide assurance for safety, security and other infrastructure 
needs. This must be a two-way conversation.
    Last March, a Las Vegas newspaper published an editorial 
titled, ``Washington, Make Us an Offer.`` That's stated in 
quotations ``If we're going to have a conversation about 
nuclear waste storage it should start with honesty from both 
sides.''
    The editorial proceeds to identify the potential associated 
with reprocessing and research on nuclear material. This is the 
very conversation that we are here today to have.
    Today's testimony will inform a key component of this 
committee's efforts to develop comprehensive legislation to 
advance used fuel management. This session of Congress we 
received testimony addressing challenges associated with a 
variety of nuclear waste issues including how to safely 
transport nuclear material and fix a broken budgetary system.
    Those two topics in particular are relevant to the state of 
Nevada's interests. I have heard concerns that spent fuel 
shipments will travel too close to population centers. To 
address these concerns, I would welcome alternative proposals.
    Further, Congress needs to assure financial resources for 
the state and affected local governments are available for 
technical and administrative costs when the money is needed.
    However, beyond financial resources I look forward to 
hearing what tangible items could benefit the state such as 
associated infrastructure, access to federal land rights and 
economic value and the jobs to support a nuclear reprocessing 
facility.
    While we are examining the Nuclear Waste Policy Act in 
Nevada, we can also learn from similar examples relating to 
hosting nuclear storage facilities for the federal government.
    For example, what lessons can be learned from the New 
Mexico's experience as a host of the Waste Isolation Pilot 
Plant, WIPP, a repository for transuranic nuclear waste.
    In the WIPP Land Withdrawal Act, Congress helped to 
mitigate transportation risk by authorizing an alternative 
route around Santa Fe, New Mexico. Similarly, New Mexico state 
officials have the authority to inspect transportation 
canisters to make sure they meet the high regulatory standards 
in place.
    The federal government also entered into an agreement with 
the state of Idaho in 1995 to govern the storage of U.S. Navy 
spent nuclear fuel. This agreement included a required 
milestone and legally binding consequences if the federal 
government does not meet those standards.
    I recognize that New Mexico and the Idaho situations are 
each unique. But we should be applying lessons learned to 
Nevada rather than current path proposed by this 
administration.
    The Department of Energy is currently in the midst of an 
extended road show to highlight a political message that states 
should have veto power over a national decision to resolve a 
national challenge. But this publicity campaign ignores the law 
of the land.
    Nye County offered to host the DOE in public meetings but 
the department has chose to pursue meetings in the far reaches 
of the country and pretend that the citizens of Nye County are 
irrelevant to the discussion.
    The federal government made the decision to site the 
repository at Yucca Mountain site in 1987. The DOE should be 
working with Nevada stakeholders to make sure of the progress 
on this repository instead of ignoring the law of the land.
    Our hearing this morning will do the job that DOE isn't. We 
will continue to listen to all stakeholders to develop a 
comprehensive solution to dispose of our country's spent 
nuclear fuel.
    Thank you again for your participation on this important 
issue and I apologize for going over time, and I yield back the 
remainder of the time I have.
    The chair now recognizes the ranking member of the 
subcommittee, Mr. Tonko, from New York.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    Good morning and welcome to our hearing to receive input 
from Nevada stakeholders about opportunities to move forward 
with the Yucca Mountain project.
    First, I would like to thank my colleagues who are here to 
testify on this important issue. The members of the Nevada 
delegation demonstrate a willingness to engage in this 
conversation of national importance and demonstrate leadership 
in the Federal policy-making process. Congressman Cresent Hardy 
represents Nye County, the site of Yucca Mountain, and the 
immediate surrounding counties. I appreciate his dedication in 
representing his constituents in Congress and recognition of 
the need to be a part of a constructive dialogue. He has stated 
that he will not tolerate the compromising of his constituents' 
safety, nor the safety of any other Nevadan. And I 
wholeheartedly agree.
    I welcome my colleague from Illinois, Congressman Bob Dold. 
His testimony and legislation highlight the implications on 
communities around the country associated with this 
Administration's decision to walk away from Yucca Mountain. The 
legacy impact on cities like Zion, IL is often lost in the 
national conversation regarding the development of the Yucca 
Mountain repository to dispose of our nation's commercial spent 
nuclear fuel.
    While we will hear from many Nevada stakeholders this 
morning, we will not be hearing directly from the State of 
Nevada. Governor Sandoval declined the Committee's invitation 
to participate and stated his opposition to the project based 
on scientific, technical and legal merits. I understand 
Governor Sandoval's position and look forward to seeing the 
scientific and technical issues resolved when the licensing 
process resumes. We are not here to pre-judge the outcome of 
this process, but rather discuss what Congress should consider 
when the license is issued.
    Governor Sandoval is rightfully proud of Nevada's 
contributions to our nation as the host of key national 
security facilities and armed forces bases. He notes, 
``Nevadans also believe our relationship with the federal 
government should be one where the state is seen as a valued 
partner; an ideal that often is not recognized.'' I hope going 
forward we will have a meaningful conversation about how 
exactly that partnership can be constructed espite the State's 
formal objection in 2002, one Congress overwhelmingly rejected. 
I look forward to building this relationship and a continuing 
dialogue with the Governor.
    Our second panel of witnesses today consists of a wide 
range of Nevada stakeholders, including State and local elected 
officials, and private citizens. Those families who reside 
closest to the repository site should have their voices heard 
so Congress can understand their priorities, including how the 
Federal government can provide assurance for safety, security, 
and other infrastructure needs. This must be a two way 
conversation.
    Last March, a Las Vegas newspaper published an editorial 
titled ``Washington, Make us an Offer,'' that stated ``if we're 
going to have a conversation about nuclear waste storage, it 
should start with honesty--from both sides.'' The editorial 
proceeds to identify the potential associated with reprocessing 
and research on nuclear material. This is the very conversation 
that we are here today to have.
    Today's testimony will inform a key component of this 
Committee's efforts to develop comprehensive legislation to 
advance used fuel management. This session of Congress we 
received testimony addressing challenges associated with a 
variety of nuclear waste issues, including how to safely 
transport nuclear material and fix a broken budgetary system. 
Those two topics in particular are relevant to the State of 
Nevada's interests. I have heard concerns that spent fuel 
shipments will travel too close to population centers. To 
address these concerns, I would welcome alternative proposals. 
Further, Congress needs to assure financial resources for the 
State and affected local governments are available for 
technical and administrative costs when the money is needed.
    However, beyond financial resources, I look forward to 
hearing what tangible items could benefit the State, such as 
associated infrastructure, access to Federal land, rights to 
economic value and the jobs to support a nuclear reprocessing 
facility.
    While we are examining the Nuclear Waste Policy Act and 
Nevada, we can also learn from similar examples relating to 
hosting nuclear storage facilities for the Federal government. 
For example, what lessons can be learned from New Mexico's 
experience as the host for the Waste Isolation Pilot Plant 
(WIPP), a repository for transuranic nuclear waste. In the WIPP 
Land Withdrawal Act, Congress helped to mitigate transportation 
risks by authorizing an alternative highway route around Santa 
Fe, New Mexico. Similarly, New Mexico State officials have the 
authority to inspect transportation canisters to make sure they 
meet the high regulatory standards in place.
    The Federal government also entered into an agreement with 
the State of Idaho in 1995 to govern the storage of U.S. Navy 
spent nuclear fuel. This agreement included required milestones 
and legally binding consequences if the Federal government does 
not meet those standards. I recognize the New Mexico and Idaho 
situations are each unique, but we should be applying lessons 
learned to Nevada, rather than the current path proposed by 
this Administration.
    The Department of Energy is currently in the midst of an 
extended roadshow to highlight a political message that states 
should each have veto power over a national decision to resolve 
a national challenge. But this publicity campaign ignores the 
law of the land. Nye County offered to host a DOE public 
meeting, but the Department instead chose to pursue meetings in 
the far reaches of the country and pretend the citizens of Nye 
County are irrelevant to this discussion. The Federal 
government made the decision to site the repository at the 
Yucca Mountain site in 1987. DOE should be working with Nevada 
stakeholders to make progress on the repository instead of 
ignoring the law. Our hearing this morning will do the job that 
DOE isn't.
    We will continue to listen to all stakeholders to develop a 
comprehensive solution to dispose of our country's spent 
nuclear fuel. Thank you again to your participation on this 
important issue.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair, and I thank the witnesses 
for joining us here this morning.
    The inventory of spent nuclear fuel in the United States is 
now over 72,000 metric tons and growing every year. We have 
held a number of hearings on this issue during this Congress so 
it will come to no surprise to members of the committee or our 
witnesses to hear me say that we are at an impasse.
    We have been for decades and we will not resolve that here 
today. As we have discussed in previous hearings, many factors 
have prevented the Department of Energy from completing a 
nuclear waste repository at Yucca Mountain.
    At this time I would like to, Mr. Chair, ask for unanimous 
consent for letters from the Nevada governor, Brian Sandoval, 
and State Attorney General Adam Paul Laxalt, to be entered into 
the record.
    Mr. Shimkus. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Tonko. Thank you.
    In both of these letters these officials make it clear that 
the state of Nevada's position has not changed. They call for a 
long-term sustainable solution for the nation's nuclear waste 
through a consent-based process.
    This also will not be news to anyone here. A consent-based 
approach to siting future nuclear waste management facilities 
was a recommendation of the Blue Ribbon Commission and 
supported by the Department of Energy.
    The host state, tribal, and local governments need to have 
a seat at the table and that certainly includes negotiating 
benefits. I am sure that it is a message we will hear this 
morning.
    So I thank our witnesses for being here and in particular I 
want to thank our colleagues for taking the time to testify 
before this subcommittee.
    But with that said, I think it must be acknowledged that 
there are other issues we should be examining within our 
limited time remaining in the session of the 114th Congress.
    Our time could be spent working on problems we can resolve 
now. We can work on an aid package for the city of Flint and 
bring it to the floor.
    Our Senate colleagues and Mr. Kildee have made a number of 
suggestions and yet we have seen no action in this House to 
help the thousands of children that were poisoned by lead in 
their drinking water.
    According to a recently released report from the Natural 
Resources Defense Council, more than 18 million people are 
served by community water systems that exceed the action level 
of the EPA's lead and copper rule guides us with.
    It isn't just Flint. This is a widespread problem. In fact, 
even in our own Cannon Office Building high levels of lead have 
been found in the drinking water. Blood level lead testing is 
now being offered to House members and staffers.
    In my own backyard in upstate New York in the village of 
Hoosick Falls, perfluorooctanoic acid, or PFOA, has 
contaminated the drinking water. Hoosick Falls is not unique 
either.
    A number of communities have found PFOA or other 
unregulated contaminants present in their drinking water. 
Whether it's lead, PFOA or other contaminants, it is clear that 
the quality of our drinking water deserves greater scrutiny.
    We have ignored our crumbling drinking water 
infrastructure. We ignored lead and other contaminants in our 
drinking water supplies and we have ignored getting the city of 
Flint and other impacted communities the just assistance they 
need and certainly deserve.
    We cannot ignore these problems any longer. Safe drinking 
water is essential to our every life. It's essential to every 
job in this country.
    This is only one of many issues we could address this year 
to make meaningful health, environment economic impacts in our 
country. I hope we can give these other issues the attention 
they deserve also.
    And with that, Mr. Chair, I yield back my time.
    Mr. Shimkus. Chairman yields back his time.
    The chair now recognizes the majority side to see if anyone 
wants time for an opening statement. Seeing none, the chair now 
recognizes the ranking member of the full committee, Mr. 
Pallone, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    Today's hearing will take a look at the storage of nuclear 
waste in the United States and the benefits provided to 
communities hosting waste facilities and I want to welcome all 
our witnesses, particularly our colleagues on the first panel.
    While the safe storage and disposal of spent fuel from our 
nation's nuclear reactors is an important matter in the realm 
of our country's energy future, this subcommittee has already 
spent more than enough time on this issue while avoiding other 
more pressing issues, in my opinion.
    In fact, this is the fifth hearing this subcommittee has 
held during this Congress on the issue of nuclear waste. With 
the little time that we have left in this session, we should be 
spending our time focusing on other pressing matters that are 
of serious concern to our constituents and that have not 
already received such significant hearing time.
    For example, we could be using today's hearing time to 
discuss safe drinking water. Last week, Mr. Tonko and I 
requested hearings to address meaningful steps to provide the 
additional tools the state and local governments need to ensure 
the public is provided with clean and safe drinking water and 
this committee has simply not done enough to address this 
issue.
    But we're here again holding another hearing on the 
decades-long debate over the disposal of nuclear waste at the 
Yucca Mountain site. But even in that context this hearing 
misses the mark.
    Regardless of your position on this issue, focusing solely 
on Nevada and Yucca Mountain does not help in moving this 
conversation forward. I believe this hearing might have been 
useful had we invited the Department of Energy to discuss its 
work on consent-based siting and interim storage.
    There are also important perspectives we could hear related 
to applications for storage in Texas and New Mexico that are 
currently pending before the Nuclear Regulatory Commission as 
well as related bipartisan legislation from Mr. Conaway, Mr. 
Green, and others that have been pending before the 
subcommittee.
    Unfortunately, instead of looking for a new path forward 
all we're doing is pursuing the same old path down the same old 
rabbit hole with no clear purpose or benefit to the American 
people.
    I'd like to yield the remainder of my time to Mr. Green.
    Mr. Green. I want to thank my colleague, Ranking Member 
Pallone for yielding time.
    This is our fifth subcommittee hearing held on nuclear 
waste storage this Congress. It's a very important issue and I 
want to thank Chairman Shimkus for our continued oversight.
    I believe it's now time for our subcommittee to go beyond 
the fight over Yucca Mountain and consider proposals that will 
move the ball forward and safely store our nation's spent 
nuclear fuel.
    I'm an original co-sponsor of the Interim Consolidated 
Storage Act introduced by Congressman Mike Conaway of Texas. 
This legislation would allow for interim storage of nuclear 
waste.
    An interim facility would have to be licensed by the 
Nuclear Regulatory Commission and would be paid through the 
nuclear waste fund.
    Passage of this bipartisan legislation would provide our 
country with a path forward to securely store nuclear waste 
currently held at dozens of facilities like the South Texas 
Nuclear Project in our area around the country while we decide 
what to do with Yucca.
    Waste Control Specialists, a private company out of west 
Texas, has already applied to operate an interim facility with 
federal regulators and believe it can start receiving spent 
fuel by 2020. This proposal is supposedly supported locally and 
by the state and is in line with the Blue Ribbon Commission's 
recommendations.
    I'm on record supporting Yucca Mountain. I visited the 
facility in 2011 with Chairman Shimkus when I was ranking 
member of the subcommittee and believe it's safe for long-term 
storage.
    Taxpayers in Houston and Harris County, Texas and round the 
country have spent $15 billion studying and building the 
facility. Unfortunately, we have not been able to go beyond the 
fight over Yucca for over a decade.
    All the while, thousands of metric tons of spent fuel are 
stored at power plants throughout our country. We owe it to the 
American people to move forward and I urge the subcommittee to 
consider alternative proposals including the Interim 
Consolidated Storage Act.
    And I thank you and yield back my time.
    Mr. Shimkus. Gentleman yields back his time and I thank my 
colleagues.
    Mr. Pallone. Mr. Chairman, I don't know if any other member 
on my side wants their time. I guess not. I yield back.
    Mr. Shimkus. I am sorry.
    And now I'd like to turn to our colleagues at the first 
panel and we will introduce you one at a time as you give your 
opening statements.
    First is Congressman Dina Titus from--she has corrected me 
many times--Nevada. I'm doing well, right? At least I got 
something in pronouncing the state correctly, and you're 
welcome and recognized for 5 minutes.

STATEMENT OF THE HON. DINA TITUS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Ms. Titus. Well, thank you very much, Mr. Chairman. Ranking 
Member Pallone, Ranking Member Tonko and other members of the 
subcommittee.
    I appreciate this opportunity to testify. As you have 
stated, Yucca Mountain has been an issue of major importance 
for Nevadans for decades. It dates back to 1987 when President 
Reagan signed the so-called Screw Nevada bill into law.
    In the years that have followed, I along with bipartisan 
business, civic and apolitical leaders throughout Nevada have 
been unified with rare exception and vehement opposition to 
this failed proposal.
    Now, it's my understanding that today's hearing is intended 
to suggest that some benefit will accrue to Nevada for hosting 
nuclear waste generated elsewhere.
    Well, on behalf of three out of four Nevadans who oppose 
Yucca Mountain, I'm here to say we cannot and will not be 
bought off.
    Mr. Chairman, after word of this hearing got out I was 
contacted by major stakeholders throughout Nevada who wanted to 
weigh in and have their voices heard.
    I have letters in opposition from leading Nevadans and 
organizations, also our governor and Senator Heller, an 
editorial from the Las Vegas Sun. I would request that these be 
entered into the record.
    Mr. Shimkus. Yes. I can get staff to grab those, bring 
those up here. We'll look at them and then----
    Ms. Titus. Thank you so much.
    Now, I realize that many people may not know about or 
appreciate the significant contributions and major sacrifices 
that Nevada made during Atomic Age.
    More than a thousand nuclear detonations occurred near 
downtown Las Vegas and you could see the mushroom cloud rising 
over the desert not far away.
     These tests took place at a time when the federal 
government conducted duck and cover drills to show us how to 
protect ourselves from radioactive fallout. I imagine some 
among you will remember Bert the Turtle--duck and cover.
    Well, since then billions of dollars have been paid to the 
residents of Nevada, Utah and other downwind states that were 
under that radioactive cloud earlier in the 20th century.
    I give this history lesson not only to highlight Nevada's 
role in atomic development but also to remind you that they 
told us then we were safe and they are telling us now we are 
safe.
    Members of Congress may board a plane to my district and 
then be shuttled out to the desert north of town for a photo op 
where they can see the dry and desolate moonscape where Yucca 
Mountain is located.
    But you shouldn't be fooled by such a superficial look at 
land that Nevadans love and want to protect. Nevada is not a 
wasteland. It's home to unique desert habitats, rare and 
endangered species of plants and animals, iconic wildlife like 
bighorn sheep and desert tortoises, and cultural resources from 
Native American tribes dating back thousands of years.
    Such a quick visit also ignores the fact that beneath the 
surface are major fault lines and a water table that moves 
towards the Las Vegas Valley, where 2 million people live.
    Furthermore, this waste that is going to be stored there 
has to be shipped thousands of miles across this nation on 
highways and byways that go through all of your districts--in 
fact, almost everybody in Congress' district.
    Fourteen years ago, I stood next to our Republican 
governor, Kenny Guinn, and other leaders from around the state 
on the day he first vetoed the Yucca Mountain site. In the 
years that have followed, billions of dollars have been wasted 
on this boondoggle and we are still no closer to a solution.
    It wasn't until the Obama administration assembled a Blue 
Ribbon Commission on America's nuclear future with some of the 
most respected experts on this topic who released a list of 
recommendations to guide us forward.
    One such recommendation, which goes to the heart of the 
matter and has been referenced earlier, is adopting a consent-
based process by which repositories are sited. That is why I 
joined with my colleague, Joe Heck from the House, and Senators 
Harry Reid and Dean Heller to introduce the Nuclear Waste 
Informed Consent Act.
    Now, I have heard proponents make all kind of false 
promises to us in Nevada. They say Nevada could receive 
hundreds of millions of dollars for infrastructure projects or 
maybe be allocated more water from the Colorado River, for 
example.
    Well, who can take that seriously, really? This Congress 
has failed in its response to nearly every pressing issue 
facing our nation. There's not even enough money for the 
completion of the Yucca Mountain project, much less extra left 
over--bribe money to give to Nevada.
    Nevadans may be gamblers but we are not fools. We know how 
to calculate the odds.
    So in conclusion, I would ask you to remember that Nevada 
has done its part in the development of U.S. nuclear energy. 
Furthermore, we didn't produce this commercial waste.
    We don't have any nuclear power plants. So we say keep it 
where it is for now. Pass a consent-based bill. Move forward so 
places who want it can have it.
    So in short, I urge my colleagues on this subcommittee 
concentrate your efforts on ways to make progress, to move 
forwards, not backwards, so we can really solve this problem.
    I thank you for your attention and I yield back.
    [The statement of Ms. Titus follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The gentlelady yields back her time and we 
thank her for her testimony.
    The chair now recognizes Congressman Amodei from also the 
great state of Nevada and he's recognized for 5 minutes.
    Pull that mic a little closer. I know you've got a big 
mouth.
    Mr. Amodei. I thought that you had wanted me to----
    Mr. Shimkus. And turn the mic on.
    Mr. Amodei. On purpose, Mr. Chairman.

   STATEMENT OF THE HON. MARK E. AMODEI, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF NEVADA

    Mr. Amodei. Thank you, Mr. Chairman, for hosting this 
hearing, Ranking Member Tonko. I appreciate the opportunity to 
share my views regarding the sense of your subcommittee, the E 
& C Committee as a whole and in fact what may indeed be the 
sense of the House of Representatives Regarding the Yucca 
Mountain Nuclear Repository in Nevada.
    No one participating in this hearing should interpret 
anything that I say as expressing a sense of what may or may 
not happen in the 115th Congress either in this house or on the 
north side of the building in the Senate.
    But nonetheless, the 115th Congress will convene in about 6 
months and the issue regarding people sitting in new seats and 
what the nation's policy is going to be with regard to high-
level long-term nuclear waste issues I think will be something 
that is on the agenda.
    I want to make it clear from the outset no one in Nevada is 
in favor of a nuclear landfill. Neither am I. But I also have 
young people telling me that you can go to things like 
congressionalrecord.com and Google it and put in words like 
Yucca and waste and you can see the names of some people who 
are in this House who take to the floor--I believe, Mr. 
Chairman, your name comes up occasionally--talking about this 
issue. It is not going to go away.
    Nevada cannot afford to just say no. No disrespect to the 
former First Lady, but this is an issue that needs to be dealt 
with. We are not for sale and we are not deficient in the 
national scoring sense of states of the union in terms of doing 
their patriotic duty.
    Accordingly, if we decide to deal with this I appreciate 
the opportunity to have a discussion that says what are the 
real impacts--what should our policy be and in that context 
what is the story for Nevada.
    I have got some things for you to think about as policy 
makers to evaluate a responsible course of conduct with respect 
to local and state economic impacts, operating oversight, 
safety policy in the near and long term and our policy as a 
nation regarding the material itself. Let's start there.
    Remember the statement nobody is in favor of a nuclear 
landfill. There is ongoing research in this country, in the 
state of Nevada, at the University of Nevada, Las Vegas, 
regarding reprocessing.
    So when we talk about dealing with this issue that I think 
we need to talk about well, should we start treating this as a 
commodity instead of trash. Because guess what--even if you 
want to talk about consent as long as we really see it as trash 
good luck with that consent thing. I think they're trying that 
over in Sweden right now.
    So the key becomes in terms of a responsible comprehensive 
policy is how do we do reprocessing in a way that we are not 
looking for someplace to dump it and run. There is already some 
infrastructure there. There are people in Nevada delegation.
    The senior senator has visited that. I would suggest that 
if you want to deal comprehensively you say, what can we do to 
that program there to make it the leader in the nation so that 
we're not talking about trash anywhere--we're talking about a 
commodity. That is something that this committee should look at 
and make it part of comprehensive policy as opposed to just 
Tuesday is garbage day and when the truck is gone we don't have 
to worry about it.
    Next, Nevada has an excellent scientific research entity in 
terms of an outfit that's called the Desert Research Institute 
in terms of nuclear monitoring, operational monitoring, making 
sure that if the assumptions in terms of how this is treated or 
correct that those assumptions actually come through. They 
should be given that responsibility. It is imminently fair if 
you decide to locate this in Nevada that people of 
qualification are put in charge of making sure that our 
assumptions are correct.
    Some people may scream, oh, earmark. Well, guess what, the 
siting is the biggest earmark you can have and we ought to at 
least have our homegrown folks taking a look at it that have 
scientific objective credentials and credibility.
    Let us talk about safety first a minute. Since the location 
of this before--before it transforms hopefully back into a 
commodity is something that is of primary concern to those 
folks in the region. That ought to be the National Center for 
Nuclear Safety.
    That ought to be the National Center for Nuclear Emergency 
Reaction Training. What better place to do it than the folks 
with the largest stake in the nation in terms of proximity to 
the material?
    Now, I want to stop for just a minute and let you know this 
is not hey, how much is it--can you buy us off for this or 
that. This is responsible policy infrastructure which will have 
an economic impact but also has the dual role of saying we're 
dealing with this comprehensively instead of hit and run.
    The final thing I want to leave for your consideration is 
this. Nevada is a state that is owned by a super majority in 
terms of federal lands. Right now, that site is in the 
possession of the Bureau of Land Management, which means if you 
move forward you are going to have to do a federal lands 
transfer to DOE.
    I would suggest that there is a very, very successful 
example in Nevada. It's called the Southern Nevada Public Lands 
Management Act where we transfer lands in a highly transparent 
process for purposes that are agreed upon by everybody in the 
state.
    If you're going to do this and transfer that land I would 
implore you to look for other opportunities in other states, 
because as my colleague from southern Nevada--there are 
transportation issues.
    Transportation issues in Nevada, outside of Nevada, safety 
issues. It is an opportunity to do other lands transfers to get 
you away from the earmark thing, and by the way, when you do 
all those a state that is 87 percent owned by the federal 
government might, if you take some suggestions, oh my, only be 
owned 80 percent by the federal government.
    So it is not ipso facto magical way to get all the lands 
back in the state. It is a responsible way, and by the way, the 
beauty of this we don't have to write a check in Congress for 
that.
    There will be some costs but it is a relatively efficient 
way to say OK, you want some more control--you want to some of 
that economic development stuff, here are some lands that make 
the most step--have at it.
    So, in conclusion, I would just say this. Nuclear policy is 
more than where you're going to put it and walk away. If you're 
going to be responsible it needs to be comprehensive. Not 
looking for a payday, not looking for special treatment.
    But when you think about things like safety operations and 
what's going on in the state there are many opportunities for 
this Congress or the next Congress to go ahead and deal 
comprehensively.
    You'll never get everybody in the state to hug it but at 
least you can stake out some ground that is usually unique 
these days in terms of saying we've dealt with it 
comprehensively, transparently and from a responsible 
perspective.
    I appreciate the opportunity, Mr. Chairman, and I yield 
back.
    [The statement of Mr. Amodei follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The gentleman yields back his time and I thank 
him for his testimony.
    The chair now recognizes my colleague from Illinois, 
Congressman Dold, and you are recognized for 5 minutes.

   STATEMENT OF THE HON. ROBERT J. DOLD, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Dold. Thank you, Mr. Chairman. It's, obviously, great 
to be here. I appreciate the honor to be able to testify before 
you, Ranking Member Tonko and members of the subcommittee.
    As you know, I'm Bob Dold. I represent Illinois 10th 
congressional district. I am here today to testify about the 
community of Zion, Illinois, and wanted to talk more 
specifically about H.R. 5632, the Stranded Nuclear Waste 
Accountability Act of 2016, which is a bipartisan bill that I 
had the opportunity to introduce this week.
    To fairly compensate the 13 communities across our country 
affected by the federal government's failure to make good on 
its commitment to remove spent nuclear fuel from formerly 
operating nuclear power plants.
    Zion is a city in the northern part of Lake County. Zion is 
the home to approximately about 25,000 people and in 1973 the 
Zion Nuclear Power Plant Station opened on 257 acres of Lake 
Michigan shoreline.
    The plant operated from 1973 to 1998. But before the plant 
was closed, it created good high-paying jobs for the community 
and the local governments received a significant amount of tax 
dollars from the increased tax base.
    Unfortunately, once the plant closed those benefits to the 
community went away. Since 1998, the community has faced a 
difficult situation due to the presence of spent nuclear fuel 
on the site.
    As this committee is well aware, the federal government's 
failure to move ahead with Yucca Mountain has meant that all of 
the nuclear spent fuel, the radioactive materials that once 
powered the nuclear plant, has remained on site in dry storage 
in the middle of Zion, just a few hundred yards away from one 
of the greatest natural resources we have in our nation in the 
Great Lakes.
     The community of Zion never negotiated to become an 
interim spent nuclear fuel storage location. But without the 
federal government doing its part in developing a long-term 
geologic storage site for nuclear waste that is exactly what it 
has become.
    Zion's status as it is today has come with a very high 
cost. Mr. Chairman, I have brought with me today two letters--
one from the mayor of the city of Zion, Al Hill, and the other 
from 34 local elected officials and community leaders in the 
Zion area.
    Each of these letters details the impact on Zion, Illinois. 
Each of these letters details, again, what has happened and 
they obviously would like to respectfully request that they be 
submitted for the record.
    Mr. Shimkus. Without objection. Also, Congresswoman Titus, 
we're accepting your letters also.
    [The information appears at the conclusion of the hearing.]
    Mr. Dold. In order to help with these 13 communities, Mr. 
Chairman, impacted this way, earlier this week I introduced the 
Stranded Nuclear Waste Accountability Act of 2016.
    This bill recognizes the problem that the federal 
government has caused in the communities that are home to a 
formerly operating nuclear power plant but where spent nuclear 
fuel continues to be stored.
    The federal government would pay the local government a fee 
to compensate that community for their status as a de facto 
spent nuclear fuel storage site. That fee is the same amount 
per kilogram as was included in the original Nuclear Waste 
Policy Act of 1982.
    Importantly, this bill puts a seven-year limit on these 
funds so that these communities are fairly compensated but do 
not become indefinitely reliant on federal dollars. The 
political failure to move ahead with Yucca Mountain has created 
an unfortunate situation for Zion and communities like her 
across our country.
    Without negotiation and without compensation these 
communities have been transformed into spent nuclear fuel 
storage sites. While the best solution is still to find a way 
to make sure that spent nuclear fuel is removed from these 
communities.
    In the meantime, I believe that this bill--my bill, a 
bipartisan common sense proposal to help compensate these 
communities and defray some of the costs associated with 
storing spent nuclear fuel out in these various 13 different 
communities.
    Chairman Shimkus and Ranking Member Tonko, members of the 
committee, I want to thank you again for the opportunity to 
testify today and I also look forward to answering your 
questions.
    I yield back.
    [The statement of Mr. Dold follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The gentleman yields back his time.
    The chair now recognizes the gentleman from Nevada, 
Congressman Hardy. You're welcome to the hearing room and you 
are recognized for 5 minutes.

   STATEMENT OF THE HON. CRESENT HARDY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF NEVADA

    Mr. Hardy of Nevada. Thank you. Chairman Shimkus and 
Ranking Member Tonko and members of the committee, thank you 
for the opportunity to----
    Mr. Shimkus. I think it's on. Just pull it closer.
    Mr. Hardy of Nevada. Thank you for the opportunity testify 
here at today's hearing. I represent Nevada's 4th congressional 
district which stretches from north Las Vegas and the northern 
Clark County into the part of six rural counties in central 
Nevada.
    Now, there are many folks back here in Washington who might 
be aware that anything exists north of a little strip of land 
called Las Vegas Boulevard along the strip, as far as they're 
concerned, and that it just might be empty desert.
    However, such thinking fails to recognize the diverse 
mosaic of people who represent the backbone of Nevada including 
the hardworking families of north Las Vegas, the rich cultural 
heritage of our indigenous tribes and the miners and ranchers 
who symbolize the industrious spirit of America West.
    It also ignores the incredible contributions and burdens 
borne by this part of Nevada to protect our national security 
generation after generation. From the testing and development 
of our nuclear deterrent that allowed the United States to win 
the Cold War to the most advanced realistic air combat training 
anywhere in the world to the dedicated airmen and women who fly 
remotely-piloted aircraft in the war against ISIS and al-Qaeda. 
People in this part of Nevada are no strangers to serving our 
country. They are also no pushovers, nor am I.
    As a representative, I am committed to fight so that all 
their voices are heard, to ensure that they always have a seat 
at the table. That brings us to the reason that I am seated 
here at this table here today.
    Yucca Mountain, located roughly a hundred miles northwest 
of Las Vegas, has been designated by an act of Congress as the 
only authorized site for a permanent repository to house spent 
nuclear fuel and highly radioactive waste.
    In the nearly 30 years since that decision billions of 
taxpayer dollars have been spent, endless litigation has played 
out, administrations have stonewalled, recriminations have 
abounded.
    Yet, two fundamental problems continue to fester. Number 
one, our nation has tens of thousands of metric tons of high-
level radioactive waste and spent nuclear fuel dangerously 
piling up at the power plants across this country with nowhere 
to safely put it.
    Number two, many Nevadans feel that they are being forced 
by the federal government to store dangerous material that they 
had no role in creating. Both of these facts are shameful 
failures of the federal government and both need to be 
addressed now.
    I often reflect on the courage of our Founders and the many 
great American leaders who followed them to take tough issues 
and make difficult decisions. On the heels of Monday's 
celebration of the 240th year of independence, I am reminded of 
the responsibility elected officials have to the American 
people, now more than ever.
    This issue of nuclear storage is not just about any one 
politician's legacy. It can't be, because on this issue we are 
talking about millennia. Not just about millennia but millions 
of years in the future.
    Geologic time doesn't care about partisan politics or 
eagles. Long after we are all forgotten, footnotes in the dusty 
pages of history, the decisions we make here won't be. The 
decisions we make here will live on and impact the lives of 
countless generations.
    That's why the decision we make here in Washington or 
Carson City or Tonopah or anywhere else for that matter need to 
be based on the soundest science and the best interests of 
Nevadans and every single American.
    The beauty of science is that it's the great equalizer, 
whether you're in Nevada, Illinois or on the surface of the 
moon. The laws of science are universal regardless of politics.
    Yucca Mountain needs to stop being an issue that 
administrations here in Washington only find useful every four 
years in the state of Nevada. Nevadans deserve to have honest 
brokers in their federal government and they deserve to hear 
the unbiased scientific results that are--their hard-earned 
dollars funded.
    After being privileged enough to be elected as a 
representative of the Nevada's 4th district in Congress, I 
discovered that too many politicians are afraid to engage in 
the constructive dialogue on this issue.
    They fail to recognize that discussing Yucca Mountain 
doesn't equal endorsement. It's leadership. I will never 
support a repository in Nevada that isn't safe and that the 
people don't want, period. Nevadans deserve a seat at the 
table. I've taken one of those seats.
    I appreciate the committee's willingness to hear my 
testimony today and I look forward to working with members on 
both sides of the aisle to work towards solutions that is 
really worthy of Americans who have sent us here.
    Thank you.
    [The statement of Mr. Hardy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The gentleman yields back the time and the 
chair appreciates the testimony of my colleagues.
    It's not the tradition of this committee to take questions 
to our colleagues so we'll dismiss the first panel and ask the 
second panel to take their seats and thank you very much for 
your time.
    So we thank the second panel for joining us today. I want 
to thank my colleagues who have actually shown up in good 
numbers today to hear both our colleagues and this panel and 
their testimony, and hopefully will stay around for a few 
questions.
    So as with the first panel, I will just go one at a time. 
You'll be recognized for 5 minutes. Your full statements 
submitted for the record.
    So with that, Mr.--first we will have Mr. Dan Schinhofen, 
County Commissioner of Nye County, Nevada--a friend of the 
committee's. Good to see you back, and you are recognized for 5 
minutes.

STATEMENTS OF DAN SCHINHOFEN, COUNTY COMMISSIONER, NYE COUNTY, 
  NEVADA; THE HONORABLE JOSEPH HARDY, STATE SENATOR, STATE OF 
NEVADA; GENE HUMPHREY, PRESIDENT, INTERNATIONAL TEST SOLUTIONS, 
                              INC.

                  STATEMENT OF MR. SCHINHOFEN

    Mr. Schinhofen. Thank you.
    Mr. Chairmen, members of the committee, thank you for the 
opportunity to appear before you today to discuss the need for 
a realistic set of mitigation benefits to go to the state of 
Nevada and affected local communities for accepting a high-
level spent nuclear fuel repository at Yucca Mountain.
    I am Dan Schinhofen, vice chairman of the Nye County 
Commission and designated liaison commissioner on Yucca 
Mountain. I appreciate the committee's continued interest in 
Yucca Mountain issues.
    If built, the Yucca Mountain repository would be located 
entirely within the boundaries of Nye County. No governmental 
body has more responsibility for the health and safety of our 
residents than the Nye County Commission.
    For that reason, we have been actively involved in the 
Yucca Mountain process for decades. In fact, Nye County has 
conducted its own scientific studies.
    Some of our results became part of DOE's license 
application. Others have been for our own oversight purposes. 
We believe in the integrity of the scientific review process 
for the Yucca Mountain repository. There is a federal process 
led by the Nuclear Regulatory Commission that includes all 
entities in a final independent decision on the safety of Yucca 
Mountain.
    The final determination if the repository can be built and 
operated safely should follow this process to completion. After 
spending over three decades and $15 billion dollars, common 
sense demands this. So do the clear mandates of the Nuclear 
Waste Policy Act. In other words, we want to see the federal 
government follow the law.
    My written testimony lays our views that there is no good 
alternative to the licencing process established in the Nuclear 
Waste Policy Act. It also makes a recommendation on ways to 
improve that act.
    To summarize, we believe the law should be amended to 
include a package of benefits that should go to the State of 
Nevada and local communities. This would not be bribe money. 
Instead, it would compensate the state and local communities 
for the increased responsibility that being the home of a spent 
nuclear fuel repository brings with it. It would also provide 
resources needed to build the personnel and physical 
infrastructure to support a massive public work project.
    We believe there should be two sets of benefits--one while 
the license is under review and the second when the repository 
is being built and operated.
    For the first stage we propose the following. One, 
resources to the state and local governments to fund oversight 
activities and participation in the license proceeding. Also, 
resources so those governments can fully participate in the 
planning of transportation routes to guarantee that the waste 
does not pass through Las Vegas.
    Two, resources to the site county to improve its 
infrastructure in preparation for construction. This would 
include resources for equipment, manpower and training for Nye 
County's EMS, fire, law enforcement and other relevant county 
agencies. It would also provide resources to upgrade the 
county's roads and water systems.
    Three, transfer of federal land to the state and impacted 
counties needed to support a repository. Four, resources to the 
University of Nevada system and community colleges to develop 
the trained workforce and expertise to support and monitor the 
project.
    Five, relocation of Department of Energy support offices 
and contractors into Nevada. Six, construction of new DOE 
laboratory facilities in Nye County to support Yucca Mountain 
to develop the next generation of nuclear technologies.
    Seven, payments to the state and local governments to 
replace any lost taxes and other revenues.
    Regarding the second set of benefits, which would kick in 
during the construction and operation phase of the project we 
do not have a comprehensive list prepared. Instead, we propose 
that the law-created task force with representatives from the 
DOE, NRC, state of Nevada, Nye County, impacted Native American 
tribes, and other local governments to develop a list of 
reasonable benefits.
    The task force should report back to Congress within 2 
years. The list should include a minimum additional land 
transfers, construction of a multi-use rail line that would 
serve both Yucca Mountain and other users, construction of 
interstate Highway 111, grants to the University of Nevada and 
local community colleges and payments to the state site county, 
impacted local communities, and Native American tribes.
    The package should also address the need for water which 
will be required for the project and associated support 
activities. If additional water became available for a 
desalinization plant, it would greatly relieve the water 
controversies that plague southern Nevada as well as guaranteed 
needed supply for the project.
    To save even more money, we recommend that the Nuclear 
Waste Policy Act be amended to allow Nevada to be an interim 
storage site. The current site design of Yucca Mountain 
includes aging pads that could hold up to 30,000 metric tons of 
waste. These could be built quickly and Nye County could become 
an interim site almost immediately. This would eliminate the 
unnecessary expense of licensing another site . It would also 
facilitate moving the waste away from utility sites.
    I would add that the Nye County Commission has already 
formally granted its consent to this facility. We believe all 
the savings would result from proceeding with Yucca Mountain 
will far exceed the most generous package.
    Mr. Chairman, we appreciate your willingness to engage the 
state of Nevada, local governments to develop a sensible 
package of benefits related to Yucca Mountain.
    I am here today to confirm to you that Nye County will be a 
willing partner in those efforts.
     Thank you.
    [The statement of Mr. Schinhofen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The gentleman's time has expired and I thank 
you for your testimony.
    The chair now recognizes, again, from the state of Nevada 
State Senator Joseph Hardy, and you are recognized for 5 
minutes and that the 5 minutes isn't, like, drop dead.
    We are fine if you over a few minutes. So don't let that 
clock scare you. But if you go over too long then we'll 
intervene. But you're recognized for 5 minutes.

                     STATEMENT OF MR. HARDY

    Mr. Hardy. Thank you, Mr. Chair and Ranking----
    Mr. Shimkus. I think you have to push a button at the mic 
at the bottom there.
    Mr. Hardy. So if it's a green light it's on?
    Mr. Shimkus. Yes, sir.
    Mr. Hardy. That's a new concept. Thank you.
    So as a physician I don't want to do self-CPR so I'm glad I 
have some leeway. Thank you, Mr. Chair and Ranking Member 
Tonko.
    I am grateful for the opportunity to be here. There can be 
no discussion, no deal and no agreement from the state of 
Nevada on Yucca Mountain, the spent fuel repository, until all 
safety concerns have been addressed and resolved.
    We cannot have anyone in Nevada or a visitor to Nevada put 
at risk from either the shipment or the storage of spent 
nuclear fuel. Real people have reasonable and real concerns 
about the transportation and storage of nuclear waste in 
Nevada.
    The hospitality industry is concerned even about the 
perception of any risk that would decrease visitation to 
southern Nevada. People who drive the roads and live in the 
proximity to the roads that would be used have fears of 
accidents. Farmers could worry about well and danger of 
contamination. Politicians do not want to be the one who has to 
live with the wrong decision that could turn out like a water 
contamination on a much bigger scale than Flint, Michigan.
    In so many ways Yucca Mountain project illustrates that 
perception is reality. Thus, it behooves us to be sure that 
the, quote, ``science,'' unquote, of nuclear storage is 
unassailable, irrefutable and verifiable.
    We will have to have every doubt and every question 
resolved with rational answers, not just from the advocates but 
from the skeptics with facts and figures.
    Even from those in foreign countries need to be assured 
that this is a safe place to come, stay and play. Water is 
critical to our lives and prosperity.
    We already know that the aquifers under the Nevada test 
site have been contaminated by underground detonations as well 
as the well documented effects of those downwind from the 
above-ground detonations.
    People will mistrust the government report as recently 
released as May 2016 that uses the word ``small'' in describing 
the potential adverse effect on water.
    There are definite economic benefits and risks for Nevada 
with the acceptance of spent fuel storage. People understand 
that spent fuel is not really inert or impotent in as much as 
we have to cool it down on site for a about a decade before 
putting it in unbreakable casks and burying it in the ground 
far away from civilization.
    Business, developers, public officials all care about the 
fragile consumer confidence that drives our economy. Since 
statehood, Nevada has been shortchanged. Nevada only received 
one half the land as it could have had. Nevada leads the nation 
in the percentage of land controlled by the federal government.
    Payment in lieu of taxes, commonly called PILT, has not 
matched the revenue that would have been generated by land in 
private hands. Nevada remains at or near the bottom of states 
getting a percentage of our money back from the taxes sent to 
Washington, D.C.
    I have been impressed that the best laws come about with 
getting consensus and resolution of concerns from all 
viewpoints taken seriously into account. Partnerships work much 
better than opposing parties when momentous changes are made.
    How can we agree on something? Trust. It would be difficult 
for Nevada to work with the federal government when things are 
seen as impositions as opposed to agreed upon opportunities.
    How can Congress build trust? Relinquish land control, 
build the railroad, participate in road financing, consider 
local problems such as SNPLA, recognize the BLM land take downs 
need to take into account continuous parcels with water runoff 
realities, facilitate communication corridors for fiber optics 
and energy transmissions, I-11 to Las Vegas and on to Reno, 
making a test site--that's what we call it--a place to develop 
research for reprocessing nuclear waste using spent fuel as a 
heat source to generate energy without water like some solar 
plants are doing now using salt, as well as protecting grid 
including microprocessing technologies and listening to the 
locals who know Nevada better than those who live far away.
    I realize that political science, counting votes will trump 
science. But we need both to concur and work together. I 
appreciate what Senator Reid and the Governors Bryan, Guinn and 
Sandoval have done to protect Nevada.
    We have come to a position where things are changing and 
the tide is shifting. I can count votes. In 2003, I presented 
Assembly Joint Resolution 6 originally asking for enough land 
to build a railroad from the Utah border to the test site as 
well as making a more reasonable PILT to Nevada. The land part 
was not accepted as Nevada had the votes to stop nuclear waste 
from coming.
    I now see Nevada in a position to call for all the above-
mentioned requirements to be met, especially safety for all and 
a relationship built on trust and respect for the process of 
working together in this land of the free.
    This is only my opinion but I am under the impression that 
many share it with me.
    Thank you, Mr. Chair.
    [The statement of Mr. Hardy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. I thank you for your time.
    The chair now recognizes Mr. Gene Humphrey, president of 
International Test Solutions, Incorporated. Again, your 
testimony is submitted for the record. You have 5 minutes and 
take your time.

                   STATEMENT OF MR. HUMPHREY

    Mr. Humphrey. Thank you, Mr. Chairman.
    Mr. Shimkus. You are recognized.
    Mr. Humphrey. Thanks for allowing me to speak. I am Gene 
Humphrey. I have a small business in Nevada. We moved it to 
Nevada from California because of the business climate in 
Nevada and for tax reasons, naturally.
    We manufacture a thin film that is used in making computer 
chips. We supply 164 different companies around the world. All 
of our material is manufactured in the United States. Most of 
our material is consumed in Asia and foreign countries.
    We maintain offices in Singapore and Taiwan and Japan and 
Korea so pretty international. I was raised near Cheyenne, 
Wyoming, in an area much similar to what Nevada is. Our house 
didn't have running water until I went in the Army. Going into 
the Army was the way I could get out of the environment that I 
was in and advance myself.
    And so through going into the service and spending two 
tours in Vietnam I was able to go back to the University of 
Wyoming and get an education.
    In that area around Cheyenne they built the Atlas ICBM site 
in 1958 and then later on those were replaced with Minuteman 
and Peacekeeper weapons systems. There is 200 silos around the 
ranch. Nuclear weapons are transported approximately a hundred 
miles from the main base at Cheyenne out to the furthest of the 
silos. They are transported over interstate highways--dual 
state highways that oiled and on gravel roads.
    So I know that transportation can be done safely and there 
is technology out there to be able to do it. As Americans, 
we've always faced these problems and been able to identify 
solutions for the problems, and I look at the transportation 
issue simply as technical issues that need to be addressed to 
solve the concerns that people have about safety.
    I also was a member of Nevadans for Carbon-Free Energy a 
number of years ago, a nonprofit to look at various 
technologies that could be brought to the state of Nevada to 
increase jobs in Nevada and revenue for Nevada and one of the 
things that we identified was a business opportunity that 
relates to processing of spent nuclear waste.
    We saw that the Nevada test site already had a history of 
nuclear weapons with multiple nuclear detonations down there 
and also storage currently of low-level nuclear waste in the 
Nevada test site area and it seemed that if it was done 
properly that the Yucca Mountain site could be utilized for the 
benefit of the people in Nevada.
    I've never been able to understand as a private citizen why 
we make the nuclear fuel rods, only use about 6 percent of the 
energy that's in the fuel rod and then propose to park them 
someplace underground 30,000 years, 300,000 years or a million 
years instead of utilizing the rest of the energy that's in 
that rod.
    Seems to me, as a normal business guy, you'd try to utilize 
as much of that energy as you possibly could. I started my 
career working for the Energy Research and Development 
Administration for the U.S. government after the '73 embargo, 
looking at ways to increase energy production in the United 
States. I ended up in the fossil fuels division. My first 
patent was in the conversion of coal to gaseous fuels.
    So I later went to work for the Department of Defense and 
was a weapons systems engineer on ICBMs in Cheyenne and we 
moved nuclear warheads and 220,000 pounds of high explosives 
around regularly in the community around Cheyenne without 
incident.
    So all of this can be done. In the Nevadans for Carbon-Free 
Energy one of the things we did is we funded a survey in the 
state to determine what people felt about using Yucca Mountain 
and reprocessing.
    And in that 2012 survey about 67 percent of the people said 
they supported some kind of development at Yucca Mountain and 
if the storage could be done safely and the plant safely 
operated they would support that.
    There have been surveys done ever since 2003 by multiple 
people and every year they come back with about the same kind 
of response.
    So I think in my time in Nevada people really want an open 
honest decision and input about what the facts are. We get a 
lot of scare tactics by a lot of people to be used for various 
reasons.
    But I think if you present the honest facts to the people 
they'll support development at the Yucca Mountain site. They 
look forward to using the facilities to support our education 
system.
    I was at the Harry Reid Center for Environmental Studies 
where they were doing treatment of nuclear waste and to destroy 
the waste instead of store it and I met with several of major 
companies who have reprocessing technologies and I know that 
technically it is something that we can do.
    And so I would encourage you in the committee to look at an 
open honest discussion with the citizens of Nevada to find a 
safe way to develop a reprocessing facility and storage at 
Yucca Mountain.
    Thank you, sir.
    [The statement of Mr. Humphrey follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you. The gentleman's time has expired 
and the chair will now recognize himself for 5 minutes for my 
first round of questions--probably the only round that I'll 
take.
    For Commissioner Schinhofen, did Nye County request to host 
a DOE consent-based siting public meeting?
    Mr. Schinhofen. Yes, sir. We did.
    Mr. Shimkus. Did DOE provide a meaningful response to your 
quest and if so, when?
    Mr. Schinhofen. Yes, they did, yesterday. We're going to 
meet with them today.
    Mr. Shimkus. Yesterday?
    Mr. Schinhofen. Yes. We requested in, I think, 2012.
    Mr. Shimkus. Very timely.
    Mr. Schinhofen. We'd guess.
    Mr. Shimkus. Well, will you let us know how that meetings 
goes, will you?
    Mr. Schinhofen. Happy to.
    Mr. Shimkus. Thank you. DOE is currently seeking to develop 
``a consent-based siting process.'' What is your perspective on 
their endeavor?
    Mr. Schinhofen. I don't know how you can get consent on any 
issue over the next election, let alone over 30 years and in 
consent-based, again, I don't see how that happens because this 
would be a national security site. I don't know what other 
national security sites allow state, local and tribal 
governments to object. So I think this needs to be seen as a 
national security issue, not as a consent. I don't see it 
working.
    Mr. Shimkus. Yes, and it's interesting that the country 
that actually Yucca Mountain resides in has offered and asked 
for involvement in a consent based process. The DOE continues 
to go elsewhere and then they try to propose it, as they have 
in two other states, they've already been told no.
    So it's a little frustrating from our point of view when 
local residents are willing to at least have a discussion and 
the Department of Energy is refusing that request from local 
folks.
    So do you think it is a missed opportunity for DOE to 
listen to the people who have the most experience in having a 
dialogue on spent nuclear fuel disposal? They've offered now to 
have a dialogue as of last night.
    But do you think they've lost a lot of time by not doing 
this when they first talked about this process?
    Mr. Schinhofen. Yes, sir. Absolutely lost a lot of time in 
that process.
    Mr. Shimkus. Great. So let me move to Senator Hardy.
    Senator Hardy, I routinely hear claims that nuclear waste 
would be shipped through downtown Las Vegas on its way to Yucca 
Mountain.
    DOE analyzed a variety of transportation alternatives to 
ship spent fuel to Yucca Mountain and concluded that a ``mostly 
rail'' scenario was selected as the route of choice. Knowing 
those areas, I think that makes sense.
    However, as part of DOE's comprehensive transportation 
evaluation highway routing was considered as part of the 
analysis. Federal transportation regulations permit states to 
identify highway, in quotations, preferred routes for 
radiological shipments to minimize risk and file those with the 
Federal Motor Carrier Safety Administration.
    Currently, Nevada is receiving shipments of low-level 
radioactive waste for permanent disposal at the Nevada national 
security site. Are you aware if the state of Nevada has 
designated any routes for radioactive material with the federal 
government?
    Mr. Hardy. Joe Hardy, for the record. No, sir. I am not 
aware of any particular route that has been designated, 
recognizing that low-level radiation is used in Las Vegas for 
medical purposes, obviously, and so there would be low-level 
radiation things that are in Las Vegas right now.
    And so they would have to be taken somewhere outside of Las 
Vegas from inside of Las Vegas, which means there are no routes 
that I'm aware of that have been so designated.
    Mr. Shimkus. Yes. It's our understanding the state of 
Nevada has never asked--gone through this process of 
designating routes.
    Mr. Hardy. That is correct, as far as I know, sir.
    Mr. Shimkus. Would you support the state submitting such a 
plan to the Federal Motor Carrier Safety Administration?
    Mr. Hardy. I think realistically a plan is better than no 
plan and recognizing that if we have the concept of rail being 
the thing that is most important and has been designated as 
safest that I would recognize we need to look at rail seriously 
as opposed to taking things through Las Vegas.
    Mr. Shimkus. Would identifying low-risk routes help the 
state of Nevada assure that preferred highway routes avoid 
major population centers such as Las Vegas and Reno?
    Mr. Hardy. It would give, certainly, help for the people 
who are in Las Vegas to recognize that we, the people who make 
decisions, are interested in their safety and wellbeing.
    Mr. Shimkus. Thank you. It is ironic that the state-based 
opposition to Yucca Mountain used previously discounted 
transportation routes as part of their scare tactics. But 
Nevada has not yet identified a preferred transportation route 
for low-level waste that is currently being shipped into Nevada 
for disposal at the Nevada national security site.
    And with that, I yield back my time and turn to the Ranking 
Member, Mr. Tonko, from New York.
    Mr. Tonko. Thank you, Mr. Chair, and perhaps Mr. Schinhofen 
and to our senator--how do you foresee getting around the state 
water rights issues? Obviously, that's an important part of an 
outcome here.
    Mr. Schinhofen. State water rights issues, Congressman?
    Mr. Tonko. Right.
    Mr. Schinhofen. In the state of Nevada the state water 
engineer has authority over all water issues. There is plenty 
of water in my county. Where all the low-level waste goes too 
is all in Nye County.
    It's a matter of will, and it unfortunately is political 
will and not based in any science at this point and that's what 
we hope is the science would speak to it and the state engineer 
would follow that and allow the water to be used because the 
water is currently used in Area 5, which is just down the road 
from Yucca Mountain.
    Mr. Tonko. And that's a state determination, not a----
    Mr. Schinhofen. A state determination, absolutely.
    Mr. Tonko. And I'm sure you all have examples of incentives 
or benefits that should be included to assist the state, a 
tribal or local government that has agreed to host a nuclear 
repository.
    Do you believe that the Nuclear Waste Policy Act would need 
to be amended to modify or expand the incentives that could or 
should be provided?
    Mr. Schinhofen. As my written testimony and my oral 
testimony, there are some amendments that could help this 
process, make it clear and easier.
    Mr. Tonko. Yes. Senator, any improvements or modifications 
that you can----
    Mr. Hardy. Yes. Thank you. Joe Hardy, for the record.
    We have been meeting on a regular basis with the water 
committee--the legislative water committee, as it were, and 
almost every basin in Nevada is over prescribed as meaning we 
don't have as much water as we've said people have a water 
right to.
    And when you consider the aquifers under Nevada test site 
those major three aquifers have been contaminated already and 
so you don't want to put a well down and bring that up.
    And if you consider the water being contaminated then you 
have to say that maybe when you store something such as the 
interim thing that would require an amendment that you probably 
aren't going to have as much contamination above-ground storage 
or anywhere else as we've already had detonations underground 
but have contaminated the aquifers. So we basically have 
aquifers that are unavailable to us for those reasons.
    Mr. Tonko. And beyond that, are there other specific 
examples of benefits that you support that are not currently 
included in the existing statute?
    Mr. Hardy. And if that question is to me, I firmly believe 
that the consent such as the county of Nye is critical and I 
think realistically that consent can happen and when it's done 
cooperatively recognizing the benefit and risk ratio and the 
benefits are probably going to far exceed the risks when it 
comes down to the reality of how to store it.
    And particularly I'm intrigued with the interim opportunity 
because that could be done, I think, fairly quickly according 
to the Nye County people.
    Mr. Tonko. Yes. Thank you.
    And Mr. Humphrey, in your testimony you mentioned that the 
public should not be concerned by the transportation of spent 
nuclear fuel.
    Can someone give us an explanation of how spent fuel would 
be transported to Yucca Mountain? And would it be, for 
instance, in a combination of rail and truck transport?
    Mr. Humphrey. All of the information that I've seen is in 
casks either by rail or on truck. I know that Sandia did a 
number of tests. If you see the movie where the train runs into 
the cask and it doesn't damage the cask--there's been, I don't 
know, hundreds of millions of dollars of testing done by the 
national labs, by the British government and others on 
transportation casks.
    Mr. Tonko. And does the current infrastructure exist to 
allow for a safe and secure transport of spent fuel or would 
that have to be modified and improved?
    Mr. Humphrey. I would imagine it would have to be modified 
and improved. I'm not an expert on that.
    Mr. Tonko. Yes. The transportation issues, Mr. Schinhofen 
or Senator Hardy, any concerns there that you would want to 
share?
    Mr. Hardy. It was interesting. I think transportation is 
probably one of the biggest challenges that we have if not the 
biggest.
    Earlier, we had put into the record a article from the Sun 
that just came out on the 6th and it used the phrase 
``radioactive pellets encased in ceramic also can be safely 
kept for more than 120 years in steel-lined water-filled 
concrete pools or reinforced concrete containers alongside the 
nuclear power plants that created them.''
    So it's a little ironic to me to see that we have the 
article that's against storage saying that it can be safely 
stored outside of Yucca Mountain next to a--so the storage 
issue, I think, has some interesting dynamics there.
    So it becomes the transportation issue and I enjoyed 
looking at some of the pictures of the on-site storage where 
they have three guys and four guys on a little thing on the 
other side of a storage place and the other four guys on the 
other side of the storage place and they're putting the cask 
down into the concrete barrier and they are literally guiding 
it in and within arm's reach making sure that it gets in.
    So the concept of how much radiation is going to be in that 
transportation issue is going to have to be looked at for the 
reality of it and divorce some of the emotions from it.
    So the transportation is something that I think can be done 
and can be done safely and we have to recognize that people 
still have rational fears and we have to adjust and make sure 
that we resolve those.
    Mr. Tonko. Thank you.
    Mr. Shimkus. Your time has expired. We need to move on.
    Mr. Tonko. With that, I yield back.
    Mr. Shimkus. Thank you. Chair recognizes my colleague from 
Pennsylvania, Dr. Murphy, for 5 minutes.
    Mr. Murphy. Thank you, and I welcome this panel.
    I'm from the Pittsburgh area, which is the home of 
Westinghouse where the first commercial nuclear power plants 
were built where we still do a great deal of nuclear power 
plant designing and building and it's also the home of the 
nuclear Navy in many ways in terms of design and work being 
done there.
    So quite familiar with this and Shippingport was the first 
commercial nuclear power plant along the Ohio River west of 
Pittsburgh and we still have Beaver Valley there and other 
plants around.
    So we recognize is when you have spent nuclear fuel it's 
still there right now underneath several feet of water on site 
and it's there and I hope the nation understands this too--it's 
safe there but it's still in close proximity to cities and 
suburban areas very close by.
    So when I look upon things like Yucca Mountain and other 
facilities and I look at the places I have toured in France 
where they grind up spent nuclear fuel and embed it in rock, 
where in Sweden where they drill down hundreds of meters and 
build a cave and look at storing it there.
    There's different designs around the world but it is still 
a clean fuel. It does not have an impact there in terms of 
CO<INF>2</INF> emissions and it's something I want to make sure 
we continue to support.
    But all of you have discussed infrastructure needs 
associated with hosting a nuclear disposal facility and I'd 
like to know in your opinion what do you consider to be the 
highest priority infrastructure opportunities for Congress to 
examine?
    Mr. Schinhofen, we'll begin with you and just go across the 
panel.
    Mr. Schinhofen. Thank you, Congressman.
    I think essential to the Yucca Mountain project to store 
the spent fuel down there would be a rail line. Absolutely. If 
we had a rail to move it there would be the best option.
    We currently, with transportation right down the road from 
proposed Yucca Mountain, is Area 5, where we ship what's called 
low-level waste there all the time.
    We have U-235, which is as hot as anything that would go to 
Yucca Mountain, ship there recently safely on the roads. But 
the roads need to be improved and the I-11 corridor would help 
with that, too.
    And currently the city council of Las Vegas does not allow 
shipments to go through the Spaghetti Bowl, which is right 
indowntown Las Vegas. So all that material does come through 
Nye County and Area 5 is completely in Nye County too where we 
store all that, too.
    Mr. Murphy. Thank you. Senator Hardy.
    Mr. Hardy. It would be a little disingenuous of myself to 
say it's rail in Nevada. In order to get to a rail anywhere in 
Nevada you have to get on a rail from someplace elsewhere and 
so you have every single state, every single city on the way 
who's interested in what's coming between there and radiation, 
however safe it may be.
    So yes, we need a rail line in order to be able to do that 
and recognizing that that rail is connected we need the 
conversation to exist bigger than Nevada.
    Mr. Murphy. Thank you.
    Mr. Humphrey.
    Mr. Humphrey. Yes. I assume that the rail lines would have 
to be improved. But it also is a matter of what size shipments 
you're going to use.
    Just because of the tonnage it makes sense to use rail and 
you'd have to improve the rail line. But if you broke it into 
smaller shipments to take it in over longer period of time in 
more random intervals to eliminate any kind of, you know, 
predetermined schedule for shipments you could also ship it 
with trucks.
    Mr. Murphy. Thank you.
    Mr. Schinhofen, on another question--your testimony notes 
the design of facilities at Yucca Mountain could accommodate 
consolidated interim storage sites, which Department of Energy 
is currently pursuing at others sites.
     However, Nuclear Waste Policy Act currently prohibits an 
interim storage facility and a repository in the whole state. 
So would you support removing this statutory barrier so Nye 
County could compete with other locations to host a 
consolidated storage facility?
    Mr. Schinhofen. Yes, sir. In my written testimony too we 
believe that the aging pads that are designed at part of Yucca 
Mountain would be a great place for that and we do realize that 
it would need to be amended, the Nuclear Waste Policy Act.
    Mr. Murphy. Thank you. I appreciate all of your comments 
and testimony on this and we know we have to deal with this and 
every state has their role to play and I'm thankful for your 
candid testimony.
    Mr. Chairman, I yield back.
    Mr. Shimkus. Chairman yields back his time.
    The chair now recognizes my colleague from California, Mr. 
McNerney, for 5 minutes.
    Mr. McNerney. Well, I thank the chairman for holding this 
hearing. It's an important hearing and we need to find a 
solution. We can't just assume the nuclear waste is going to go 
away--close our eyes, click our heels. No, that's not going to 
work. We need hard solutions and I appreciate your testimony 
this morning.
    Nuclear waste does have value, in my opinion, but history 
is not very kind about this. I mean, look at Savannah River, 
Rocky Flats, Hanford.
    There are very expensive, very dangerous nuclear waste 
sites that need to be cleaned up because of the actions of the 
federal government. And now the federal government has tried to 
force Nevada to accept using Yucca Mountain without proper 
transparency, without consent and now what's result? We've got 
a big stalemate.
    Twenty years, 30 years, nothing has happened. There are 
technical solutions, I agree completely. I'm a scientist, an 
engineer. We need to just be transparent. We need to be honest 
and we need to do the science properly. But, again, we need 
complete transparency and we need consent-based solutions.
    Now, there's a lot of mistrust that's been sowed over time 
with Nevada because of actions of the federal government.
    Mr. Schinhofen and Senator Hardy have a list of demands, 
which I think are quite in line with what's needed. If the 
federal government meets some of those demands or all of those 
demands are the people of Nevada going to be accepting of a 
project there?
    Mr. Schinhofen. Congressman, if I may speak first.
    I believe they will but I think this goes--my three 
children live in the biggest town to Yucca Mountain. My four 
grandchildren have all been born there.
    So it all goes back to safety--is it going to be safe and 
we won't know that unless the law is followed and we get after 
30 years and $15 billion dollars and all the science has been 
collected we need to hear the science.
    I think if the science is proven and done by the NRC in a 
fair and open process people would definitely be more 
responsive and I refer to the studies the gentleman mentioned 
and the last one in the RJ was 64 percent of Nevadans wouldn't 
object.
    But I think what needs to happen more than anything we need 
to follow the law and let the process play itself out and then 
we will know.
    Mr. McNerney. Well, we've heard a lot of emotional--not a 
lot. We've heard some emotional testimony this morning. Nevada 
has put up with a lot. They have done their duty. They don't 
want any more of this. I mean, is it possible to overcome that?
    And that's not only a question for Nevada. If the citizens 
of Nevada say no, then is any other community in the country 
going to say yes? I mean, I think we're in a real difficult 
quandary here today.
    So what is it going to take for the federal government? And 
you've said that we need transparency. We need science. I'm 
just worried that even if we do those things that mistrust is 
so deep that we're not going to be able to convince any 
community to accept nuclear waste. That's my concern.
    Mr. Hardy. If I may.
    Mr. McNerney. Yes.
    Mr. Hardy. Thank you, Congressman. I appreciate the 
question.
    I was a little stunned. February June 17th, Wall Street 
Journal business section, front page of the business section, 
has a subhead line ``Green Groups Ease Opposition to Nuclear 
Power.''
    I mean, we are seeing a understanding that hasn't been 
there before when you are comparing carbon footprints, for 
instance.
    So you are seeing people who are understanding that we have 
nuclear power. It works without the sun shining or the wind 
blowing and we recognize that you're going to have to do 
something and if Texas wanted it we would be thrilled.
    Nevada is not at this table saying we won this. I am not 
going to represent Nevada nor pretend to. But I can tell you 
there are a lot of people that I talk to on a daily basis and 
I've made a point of asking this that say I understand it and I 
think it makes sense.
    Mr. Humphrey. And I would say, sir, that I look at it as a 
business opportunity for Nevada. It's a lot of jobs, a lot of 
revenue, improving our school systems, all the things that 
we've been working for in Nevada to try to do over the last 
years.
    And with this program we are actually getting paid to take 
the jobs and we are not having to use tax abatement and other 
programs to buy the jobs.
    Mr. McNerney. Well, I think it comes down to there really 
is value in the waste material. There is energy. There is 
plenty of value if we can get to it without contaminating other 
areas without sowing mistrust like has been done in the past.
    So Mr. Chairman, I yield back. Again, I thank you for 
holding this hearing.
    Mr. Shimkus. Gentleman yields back his time.
    The chair now recognizes my colleague from Ohio, Mr. Latta, 
for 5 minutes.
    Mr. Latta. Well, thank you very much, Mr. Chairman, and 
thank you very much to the panel for being here. We appreciate 
your testimony today.
    And Mr. Humphrey, if I could start my questions with you 
and first, thank you very much for your service in the Army, to 
our country. We appreciate it.
    Mr. Humphrey. Thank you.
    Mr. Latta. And if I could just go into some of your 
testimony. You talked about reprocessing and we all know what's 
happening in France with their reprocessing.
    I was wondering if you might talk a little bit about France 
and its experience in reprocessing that spent nuclear fuel, 
what their experience has been and maybe what the economic 
impact has been on France because of that reprocessing.
    Mr. Humphrey. Well, my understanding was that France is 
about 60 percent of their electric power was generated from 
nuclear power plants. And so their reprocessing facilities were 
integral and key to their nuclear program.
    Those facilities also are decades old and the technology 
has much improved since that time. In our discussions with 
various companies that can do reprocessing we found in the new 
plants and in the ability to build a reprocessing facility that 
would actually eliminate the need for this long-term storage of 
the large quantities of material.
    Britain had a reprocessing facility. Russia has 
reprocessing. China is incorporating. Japan has a reprocessing 
facility.
    But somehow in the United States we've elected not to do 
reprocessing and yet we are the leaders in technology in the 
world. And it would seem to me that we need to emphasize our 
efforts on eliminating the nuclear waste instead of storing it.
    Mr. Latta. Well, also just to follow up on that, if we 
would have reprocessing here in the United States would it make 
sense that the reprocessing plant really locate near the Yucca 
site when Yucca becomes, let's just say, a repository?
    Mr. Humphrey. I think it's the perfect location. You also 
have interim storage. You'll have some small amount of 
permanent storage and if you had the reprocessing facility 
right there the security for the area is great and I think it 
would be great for the state of Nevada, the jobs it would 
create, and the support for our university systems, having a 
research center located on the site to be a center of the world 
for nuclear research.
    Mr. Latta. Well, thank you.
    Mr. Schinhofen, I see you shaking your head there. Would 
you like to comment?
    Mr. Schinhofen. I agree wholeheartedly that that would be--
Nye County, when we've heard that Nevada has done its part, and 
I agree it has.
    But all of that is located in Nye County and after all 
these years and Area 5 where we store low-level waste and being 
the only county that has had an atomic dropped from a plane on 
it, we have nothing to show for it.
    A reprocessing facility, I agree with Congressman Amodei 
too, as part of this holistic approach, not just dump and run, 
is a great idea and where it should go.
    But the first step is we need to follow what we do have and 
let the science speak and show it safe. But I agree with the 
gentleman here, too.
    Mr. Latta. Let me follow up. In your testimony you also 
discuss how the commission has been actively and constructively 
engaged with the DOE on Yucca for decades. Can you elaborate as 
well as discuss what relationship and communications you have 
had with the NRC?
    Mr. Schinhofen. Our relationship with the DOE over the 
years?
    Mr. Latta. Right.
    Mr. Schinhofen. OK.
    Mr. Latta. And also what your communication has been with 
the NRC.
    Mr. Schinhofen. Unfortunately, I would have to say our 
communication hasn't been quite so good with the DOE as we 
would hope, as evidenced by we're just going to have a meeting 
now about interim when we asked a few years ago.
    And in light of them putting U-235 in Area 5 and we asked 
for a year and a half for information and we didn't get it and 
when we finally did the governor----
    Mr. Shimkus. So they used the site to store and they didn't 
even really ask or--they didn't ask for any permission?
    Mr. Schinhofen. No.
    Mr. Shimkus. There was no consent-based program for this 
storage?
    Mr. Schinhofen. Yes. There was no consent. The governor did 
sit down and hold a group of meetings for about a year with 
them and we were excluded from those meetings. And the site is 
wholly in our county. So we haven't had a lot of open 
communication with them but we have done a lot of studies.
    We have done a lot of water studies in particular. With due 
respect to Congresswoman Titus, none of the water flows towards 
Las Vegas. It flows out towards Amargosa and Beatty in Death 
Valley.
    So we have done a lot of the studies. But as for our 
relationship with DOE we have constantly asked to be involved 
and be included.
    Mr. Latta. Well, thank you very much. My time has expired.
    Mr. Shimkus. And I thank my colleague for letting me jump 
in there.
    The chair now recognizes the gentleman from West Virginia, 
Mr. McKinley, for 5 minutes. Check your mic again. I don't 
think it's working. So either----
    Mr. McKinley. Thank you. Three quick questions and we'll 
see any one of you that would like to answer that.
    The waste isolation pilot plant that is located--it's an 
obvious geologic repository for nuclear waste located in New 
Mexico. As part of this partnership with the state of New 
Mexico, they had the ability to inspect the transportation of 
canisters into the state.
    That's what I understand the agreement was with DOE. Would 
this model actually help the confidence of your constituents 
that the spent fuel rods can be transported safely?
    Mr. Hardy. If I may. Thank you, Mr. Chair.
    Anything that we do that allows the state to have control 
is something that is critical. So not only can send but control 
the ability to inspect, the ability to sign off on would be 
absolutely necessary.
    It's not something that you can say we trust the federal 
government and all of its different agencies at a different 
time with a different administrator, et cetera.
    So the state would be critical that it would be involved 
with that and obviously you do not want to ignore the people 
who live there in that process. And so it would behoove us to 
make sure that Nye County not only has a seat at that table but 
has input to it. So if it comes it won't be pretty if we don't 
have the say.
    Mr. McKinley. All right. And maybe just a follow-up 
question.
    Are there other transportation priorities that Congress and 
DOE should examine to, again, continue to increase its 
confidence in people in the transportation? Are there others?
    Mr. Hardy. And while I've got the mic--Joe Hardy, for the 
record--if you consider, and I've heard some people say 
depending on how big the cask is, for instance, you would have 
to do highway hardening.
    So you have a highway that is strong enough to maintain the 
truck traffic. You would have to look at where that is going to 
be and you would have to extend what we call I-11 to a place 
because the current road system probably would not be able to 
sustain the loads that would be needed if there's any truck 
carrying at all through Nevada.
    Mr. McKinley. OK. The third wrap-up question that I have 
with Senator--excuse me, Congressman Murphy, we went over to 
the Hague in France to see the recycling facility about 5 years 
ago, I assume it was.
    But one of the things that I recall very vividly was they 
were talking about the cost of the recycling was so expensive 
and they said that because there is such a demand in France of 
using the nuclear rods that they could afford to make that 
happen and the fact that their utility bills are considerably 
higher than ours in America.
    So they were warning us, I suppose, or alerting us that 
this cost of the spent fuel--the recycling is an expensive 
process. Can any of you enlighten? Other than advancing 
technology, pursuing it so more innovatively that we might be 
able to find that? I've heard you earlier say there is none 
occurring in this country and that's a shame. But what is the 
current--is it cost-driven?
     Mr. Humphrey. I think it's primarily cost-driven. The 
reprocessing and the people that we've talked to said that it's 
going to be much more expensive than generating power from a 
straight, new electric power plant.
    But you're disposing of a problem and under the original 
legislation, as I understand it, the ratepayers are paying this 
tenth of a mil per kilowatt hour, anyone who uses electric 
power, and that's being paid for the disposal of the fuel.
    And so in the original enabling legislation the idea always 
had been as the people that use electric power are going to pay 
for the ultimate life cycle of it, which I also believe should 
be done for other things such as solar, wind, and everything 
else.
    But it certainly will be more expensive. But it solves a 
problem that we've had for a long time and I think the cost of 
it would be minimal.
    Mr. McKinley. Just to illuminate a little--when people use 
these terms a lot of expense is this twice the cost? Three 
times the cost?
    Mr. Humphrey. In what I've seen it's probably close to 
twice the cost.
    Mr. McKinley. Twice the cost.
    Mr. Humphrey. And then but also in the new technology you 
destroy the plutonium and generate electric power, which gives 
you additional revenue so there's some offsetting. And I'm not 
an expert on the economics of reprocessing.
    Mr. McKinley. OK. Thank you very much. I yield back my 
time.
    Mr. Shimkus. Gentleman's time has expired.
    The chair now recognizes the gentleman from Mississippi, 
Mr. Harper, for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman, and thanks to each of 
you for being here. I guess most of you have been here before 
and we appreciate you taking the time.
    And first, I just want to say to Mr. Humphrey thank you for 
your service to our country and your two tours in Vietnam, and 
I want to say thank you and welcome home. Thank you.
    Mr. Humphrey. Thank you.
    Mr. Harper. Senator Hardy, your testimony notes that the 
federal government obviously owns a large amount of land in 
Nevada. Could you please explain a little more about how this 
federal land control impacts state economic development 
opportunities?
    Mr. Hardy. Thank you. Joe Hardy, for the record.
    If you can have land in private hands, it's very easy to do 
property tax, for instance, and property tax is what the East 
does in order to fund education.
    Eighty-seven percent of the land controlled by the federal 
government we can't tax. So if you look at the numbers you're 
probably getting a tenth of the amount of money that you could 
generate when it's compared with four other states, for 
instance, on how much you could generate in proper use of the 
land. And I heard Congressman Amodei say, you know, we want 5 
percent of the land.
    Well, in 2003, I said I wanted 1.5 percent of the land. But 
if you look at the reality of the land in Nevada there is some 
land that's better than other land at putting in the hands of 
private property.
    BLM doesn't have enough to administer everything anyway and 
if we had the opportunity to sell land and have that 
opportunity to have property tax we would then be able to fund 
education whereas Alaska they got money to fund education--
poof, here's your money, fund your education.
    I would like land. I can do something with land. I can 
build things. We can have a economic opportunity in Nevada.
    Mr. Harper. Right. Thank you, Senator Hardy.
    Commissioner Schinhofen, does Nye County experience similar 
limitations on economic development and if so what does that 
mean for your economy?
    Mr. Schinhofen. Similar, yes. Ninety-eight percent of my 
county is either owned or managed by the federal government and 
we are the third largest county by land mass in the continental 
United States.
    So yes, we have that same limitation in trying to work with 
BLM to free some of that up it has been 15 years since our last 
RMP.
    Mr. Harper. Thank you both for that input.
    And Senator Hardy, I'm going to talk a little bit about the 
authorizing legislation for the Waste Isolation Pilot Plant, 
WIPP.
    In includes a requirement that DOE provide free and timely 
access to data related to health, safety and environmental 
issues at WIPP to New Mexico and the New Mexico Environmental 
Evaluation Group.
    This enables New Mexico to provide an independent technical 
evaluation of WIPP. So my question, Senator Hardy, is would a 
similar construct for an independent technical evaluation for a 
Nevada-based organization build trust for your constituents and 
assuring the repository meets all regulatory requirements?
    Mr. Hardy. Thank you. Appreciate it.
    Independent is interesting. I'm not sure I want an 
independent. I want one by Nevada. In other words----
    Mr. Harper. OK. Who would you recommend or do you have an 
entity----
    Mr. Hardy. I don't have a list in my pocket.
    Mr. Harper. OK.
    Mr. Hardy. But I would like Nevada to have a role in that 
because if I have the federal government, who has that 
independent group not to use current political things in a 
sentence right now it's not as independent as it is that we 
would trust.
    So if we choose it, we trust it. If you choose it, we don't 
trust it. And so we want control. We want to be able to say 
this is what we hired to have done.
    To illustrate New Mexico, for instance, back in the day I 
did the numbers and we got 75 cents back from our dollar that 
we sent to Washington, D.C. and New Mexico got $2.01 back.
    And so if you look at the medical aspect of the WIPP and 
how it affects health, we went ahead and did our Medicaid 
acceptance and so now you're looking at we doubled the number 
of Medicaid recipients in the state of Nevada when we did that. 
That is a huge cost to the state of Nevada and we are, 
obviously, looking for ways that we can afford that.
    Mr. Harper. Thank you, and I yield back.
    Mr. Hardy. Thank you.
    Mr. Shimkus. Gentleman yields back his time.
    The chair now recognizes the gentleman from Ohio, Mr. 
Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman, and gentlemen, thank 
you for joining us today. This is an important topic and your 
presence here certainly validates that.
    I want to get into a little bit about the education 
partnerships. Nevada higher education institutions have 
previously received funding to support nuclear science 
activities associated with Yucca Mountain.
    So my question, Senator Hardy and Mr. Schinhofen, do you 
support resumption of that funding and if so how can Congress 
assure that funding is effectively managed and supports nuclear 
science programs in the state?
    Senator, why don't you go first?
    Mr. Hardy. I love the question. First of all, you're asking 
us if you can trust us. That's the irony, I guess, from my 
standpoint. So we have a history of----
    Mr. Johnson. Well, you have to realize, Senator, that the 
federal government issues--and I say the federal government at 
large--spends a lot of money on things that the American people 
don't trust. So it's not me that's asking can we trust you.
    We're the voice of the American people. It's can the 
American people support the state of Nevada, and I think I know 
the answer to that but I want to give you an opportunity to 
articulate that.
    Mr. Hardy. The simple answer is yes. We have been very 
diligent in making sure we know what the Nevada system of 
higher education does, where that money goes and how we do it.
    So if there is, and that's the big if and I can read tea 
leaves, things are happening. They're going to happen. So what 
is it that if something happens that you can depend on us.
    And you can put strings on that as we would hope somebody 
does because I pay taxes, too. So there have to be strings. But 
the recognition of somewhere that is probably the most secure, 
the most safe, the best place to do anything in the way of 
research for nuclear whatever it is happens to be on a place 
that is Yucca Flat----
    Mr. Johnson. Right.
    Mr. Hardy [continuing]. Where we have bombed under and over 
more than anywhere in the world and that is the place that is 
the most secure.
    Mr. Johnson. OK. Mr. Schinhofen.
    Mr. Schinhofen. Short answer, yes. We would like to have 
that resumed and put the same restrictions on it you put on 
other moneys that came to us from before.
    Mr. Johnson. OK. All right. Well, continuing with you and 
continuing on what some of the line of questioning that my 
colleague, Mr. Harper, asked, Mr. Schinhofen, I understand that 
the Bureau of Land Management owns a significant amount of land 
in Nye County.
    Some of this land, specifically, Amargosa Valley, was 
previously made available to Nye County for purchase in 2007--
for purchase and then in 2007 the Nye County commissioners 
adopted an area plan to use a parcel of land to develop a 
``Yucca Mountain project gateway area.''
    Will you please describe the key components of this plan 
and how the federal government could assist in developing this 
proposal?
    Mr. Schinhofen. Congressman, I really couldn't go into 
great detail. We did acquire 61 acres or about 5,000 acres that 
were available. The BLM has pulled all of those back and has 
made no land now available in Amargosa for us. We have 61 acres 
near the gate that could be used for a variety of purposes--for 
study, for offices, for support. But I would be happy to send 
you that information----
    Mr. Johnson. Did they give a reason for why they pulled 
that land back?
    Mr. Schinhofen. We are supposed to do a research management 
plan, an RMP, every 10 years. We've been in the middle of ours 
for 15 years now. They're afraid of what taking that land away 
would do to one of the wildlife sites miles away from that.
    Other than that, I don't know why they've done it.
    Mr. Johnson. OK. All right.
    And for any one of you on the panel, just real quickly in 
my last 30 seconds, the construction of a repository in Nevada 
would be a massive multi-generational infrastructure project. 
What would this major investment mean for high-skilled jobs in 
the state? We have got about 20 seconds, so quickly.
    Mr. Hardy. The jobs in the state would come with all of the 
research and things that you're going to do there, not just the 
storage because once it is stored, it is there.
    So I think it's the development of the research that comes 
afterwards. It's the development of the site for other 
purposes. It's using the land for other purpose. I want land.
    Mr. Johnson. Right. OK. Thank you.
    Mr. Chairman, I yield.
    Mr. Shimkus. Gentleman yields back his time.
    Seeing no other colleagues present, we want to thank the 
second panel for not only your testimony but also your 
answering of the questions. This is just one of numerous 
hearings we've had.
    We've had it on funding. We've had it on transportation. 
We've done some on the science. Obviously, when we talk to NRC 
we've been involved with them in discussions.
    So this is just--as the senator would know, this is a 
process as we move forward on legislation and negotiations with 
the state of Nevada. So we appreciate your time, look forward 
to working with you.
    And with that, the hearing is adjourned.
    [Whereupon, at 11:41 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
